No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

OCTOBER TERM, 2020

 

BRANDON LAMONTE SORENSON,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

 

MOTION TO PROCEED IN FORMA PAUPERIS
The Petitioner, Brandon Lamonte Sorenson, through Counsel, requests that this Honorable
Court allow him to proceed in forma pauperis. In support of his Motion, Petitioner represents as
follows:
Appellate Counsel, Rachel Julagay, Assistant Federal Defender, and the Federal Defenders
of Montana, Inc., representing Petitioner before this Honorable Court, were appointed pursuant to
18 U.S.C. ยง 3006A.

DATED this Ist day of February, 2021.

ANTHONY R, GALLAGHER

Federal Defender for the District of Montana
*RACHEL JULAGAY,
Assistant Federal Defender
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

 

 
